No. ________
IN THE

Supreme Court of the United States
CANADA,
Applicant,
v.
CYNTHIA L. MERLINI,
Respondent.

CERTIFICATE OF SERVICE
I, Simon A. Steel, a member of the Supreme Court bar, hereby certify that, on
January 7, 2020, I caused one copy of the attached Application to the Honorable
Stephen Breyer for an Extension of Time to File a Petition for Writ of Certiorari to
the United States Court of Appeals for the First Circuit to be served via overnight
courier, pursuant to Rules 29.3 and 29.4(a), on:
Theodore J. Folkman, Esquire
Pierce Bainbridge Beck Price & Hecht LLP
One Liberty Square
13th Floor
Boston, MA 02109
Counsel for Respondent
Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N. W., Room 5616
Washington, DC 20530-00011

1

The United States appeared as amicus curiae (only) in the court below.

Respectfully submitted,
/s/ Simon A. Steel
Simon A. Steel*
Counsel of Record
Laura A. Seferian
DENTONS US LLP
1900 K Street NW
Washington, DC 20006
(202) 496-7077
simon.steel@dentons.com
Counsel for Appellee Canada
January 7, 2020

* Not admitted in the District of Columbia.

